<html>
<title> - AIR FORCE READINESS POSTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                
                          [H.A.S.C. No. 115-71]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                      AIR FORCE READINESS POSTURE

                               __________

                              HEARING HELD
                           FEBRUARY 14, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-994                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------

                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Nowland, Lt Gen Mark C., USAF, Deputy Chief of Staff for 
  Operations, Headquarters U.S. Air Force........................     3
Rice, Lt Gen L. Scott, USAF, Director, Air National Guard, 
  Headquarters U.S. Air Force....................................     4
Rydholm, Maj Gen Derek P., USAF, Deputy Chief of Air Force 
  Reserve, Headquarters U.S. Air Force...........................     5

                                APPENDIX

Prepared Statements:

    Nowland, Lt Gen Mark C., joint with Lt Gen L. Scott Rice and 
      Maj Gen Derek P. Rydholm...................................    27
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Scott....................................................    43
      
 
                      AIR FORCE READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                      Washington, DC, Wednesday, February 14, 2018.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Good afternoon. Ladies and gentlemen, I call 
this hearing to order of the Readiness Subcommittee on the 
House Armed Services Committee. And our sound system apparently 
is not----
    Mr. Kelly. It does not work.
    Mr. Wilson. Good afternoon. In the interest of proceeding 
without a sound system, we will all speak a bit louder, and for 
those of us from the Southern States, this may be a challenge. 
But, fortunately, Ranking Member Bordallo is from Guam, so she 
can be heard across the Pacific.
    But good afternoon, ladies and gentlemen. I call this 
hearing to order of the Readiness Subcommittee at the House 
Armed Services Committee. Thank you for being here today. This 
hearing is the first in a series of Readiness hearings on the 
services' budget request and readiness posture.
    Today, I look forward to hearing how the Air Force's budget 
request enables a readiness recovery plan where we continue to 
take risks and how this request supports our men and women in 
uniform who put their lives on the line every day.
    Over the course of the past 2 years, this subcommittee has 
met with Air Force leadership to understand the depth of the 
readiness challenges facing the Air Force. We expect that this 
budget attacks the most critical challenges; namely, those 
issues most essential to halting the readiness decline and 
rebuilding and restoring the Air Force.
    Our Air Force remains the most powerful in the world; 
however, it will take years to rebuild and restore. The purpose 
of this hearing is to clarify the Air Force's choices for its 
budget requests, to address funding priorities and mitigation 
strategies, and to gather more detail on the current and future 
impacts of these decisions on operations, maintenance, 
training, and modernization.
    More importantly, does the Air Force have the resources it 
requires in order to rebuild and restore readiness? Can it 
support the largest sustainment bills looming in the future? We 
firmly believe the primary responsibility of the national 
government is to provide for the national security of its 
citizens, and that is especially true of our airmen, who freely 
risk their lives to serve this Nation.
    Therefore, it is our responsibility, as members of this 
subcommittee, to understand the readiness situation and how the 
budget request assisting the Department of the Air Force in 
correcting any deficiencies in restoring and rebuilding the 
capabilities this Nation needs.
    I welcome all of our members and the distinguished panel of 
the senior Air Force leaders present today. This afternoon, we 
have Lieutenant General Mark Nowland, the Deputy Chief of Staff 
for Operations, U.S. Air Force; Lieutenant General Scott Rice, 
the Director of the Air National Guard; and Major General Derek 
P. Rydholm, the Deputy to the Chief of the Air Force Reserve.
    Thank you for testifying today, and we look forward to your 
thoughts and insights on these important issues.
    Now I am very grateful to turn to our distinguished ranking 
member, Congresswoman Madeleine Bordallo, of Guam, for any 
remarks she would like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    This committee is full of advocates for the Air Force. We 
look forward to the opportunity to help you. To our witnesses, 
our gentlemen, thank you for being here this afternoon. And 
with the release of the budget request for fiscal year 2019 
earlier this week, today's hearing marks the first step in this 
subcommittee's work to develop this year's National Defense 
Authorization Act.
    Over the past year, the subcommittee has heard details of 
the Air Force's readiness challenges: spare parts and munition 
shortages, talent retention issues, and overall aircraft 
sustainability challenges. These issues culminate in fewer 
ready people, aircraft, and squadrons to meet operational 
requirements.
    The Secretary of the Air Force has identified restoring 
readiness as a primary objective of the fiscal year 2019 budget 
request. However, I have some initial concerns of how this 
budget request will support that goal. Specifically, I note 
that the base operations and maintenance request remains 
relatively flat between fiscal year 2018 and 2019, despite 
significant increases to overall defense spending.
    While procurement of new hardware and advanced research 
draw significant interest, it is the operations and maintenance 
accounts that play a critical role in generating and restoring 
readiness by supporting training, maintenance, and 
sustainability of the current and future force.
    So, with that in mind, the central question I believe that 
members of this subcommittee must ask is, how will this budget 
request increase the Air Force's readiness? And I hope that our 
witnesses can help provide answers to that question today.
    So I want to thank you very much, and I look forward to the 
testimony and the discussions this afternoon.
    And I yield back.
    Mr. Wilson. Thank you, Ranking Member Bordallo.
    General Nowland, we now turn to you for your remarks and 
briefing on the incidents.

  STATEMENT OF LT GEN MARK C. NOWLAND, USAF, DEPUTY CHIEF OF 
       STAFF FOR OPERATIONS, HEADQUARTERS U.S. AIR FORCE

    General Nowland. Chairman Wilson, Ranking Member Bordallo, 
members of the subcommittee, thank you for the opportunity to 
speak with you today, along with my distinguished counterparts 
from the Air Force Reserve and the Air National Guard, on the 
state of your United States Air Force.
    On behalf of the Secretary, Chief, and 670,000 airmen 
protecting our Nation, it is an honor to be here with my Total 
Force partners. The Air Force is our Nation's asymmetric 
advantage in defending our Nation. We defend the homeland. We 
dominant the air, space, and cyber domains. And we project 
decisive combat power forward with the joint team to defend 
American interests and our allies worldwide.
    The relentless pace of nonstop operations for nearly 30 
years affected high-end readiness for the Active Duty, National 
Guard, and Reserve forces. But make no mistake: we stand ready 
together to answer our Nation's call to provide multidomain 
superiority to the joint fight.
    The newly released defense strategy is clear: we are in a 
new age of competition. Driven by our Secretary and Chief's 
priorities, the Air Force is on course to change the way we 
assess and resource readiness for full-spectrum operations.
    As the A-3, I have a team sequestered in the Pentagon today 
working at a 45-day deep dive in how we report readiness that 
we hope to share in the future. With your help, we can 
modernize our capabilities in a cost-effective manner to ensure 
your Air Force is ready to win any engagement in the future.
    As you know, quickened by your assistance and with 
additional funding in 2017, we have arrested the readiness 
decline. We have begun to do so with a keen focus on our most 
powerful resource: people.
    Thanks to your help, we added 4,000 airmen to begin to 
close our manpower gap. We are also funding more flying hours, 
munitions, new equipment and parts, depots, training, and 
training infrastructure. With stable, predictable funding, we 
will begin to turn the corner this year and accelerate into a 
multiyear climb towards full-spectrum readiness.
    However, as you noted, there are always challenges. We have 
our T-6 fleet grounded right now, and as I reported last week, 
we are moving forward. We have two technical change time orders 
that are being executed right now that we expect to be done on 
the 16th of February.
    Next week, we expect to start flying--24 crews will start 
to fly the airplane to test our on-board oxygen-generating 
system to see if we have the appropriate repairs and we can get 
back to flying operations.
    The team is also testing an alternative method with an 
oxygen disconnect from the on-board oxygen-generating system 
and also flying in a restricted flight envelope so that we 
could get back to flying.
    In other words, we have a two-prong attack to try to get 
back to flying in our T-6, which is our primary trainer, which 
we have lost 82 pilots this year already because we have 
canceled one class. You all know that we are in a pilot crisis, 
so the Air Force is laser focused on this effort.
    General Pawlikowski, our AFMC [Air Force Materiel Command] 
commander, has established a two-star in charge of it; and 
General Kwast, our AETC [Air Education and Training Command] 
commander, is making this his number one priority.
    With your help, we look forward to moving forward and 
continuing to increase the readiness of the United States Air 
Force, and I look forward to any questions.
    [The joint prepared statement of General Nowland, General 
Rice, and General Rydholm can be found in the Appendix on page 
27.]
    Mr. Wilson. And thank you very much, General Nowland.
    And we now turn to General Rice for your opening remarks.

STATEMENT OF LT GEN L. SCOTT RICE, USAF, DIRECTOR, AIR NATIONAL 
               GUARD, HEADQUARTERS U.S. AIR FORCE

    General Rice. Thank you, Chairman Wilson and Ranking Member 
Bordallo and the committee members all. Thank you for the 
opportunity to talk about our Nation's Air National Guard.
    I am here with a small team from my staff, including 
Command Chief Master Sergeant Ron Anderson, our Command Chief 
of the Air National Guard, that serves right alongside with me, 
along with all of our airmen.
    First, I would like to express my sincere appreciation to 
all those airmen, the men, women, and families of the Air 
National Guard for their unwavering dedication to serving this 
Nation.
    Over 106,000 uniformed Guard airmen of the Total Force 
provide operational and strategic depth to our Nation's defense 
strategy, ready to deploy in the homeland or around the world, 
as the threat dictates. The Air National Guard cost-effectively 
employs experienced airmen who comprise about 21 percent of the 
Total Force and contribute to every one of the Air Force core 
missions.
    Currently, we have about 7,700 dual-use Guard airmen 
deployed around the world in support of global and domestic 
operations. The demands are high, but the honor to selflessly 
serve our Nation is a significant motivator.
    Last year, the Air National Guard supported deployment 
requirements in 56 countries; filled 46 percent of the Total 
Force's overseas requirement for civil engineers; safeguarded 
American skies from 15 of 16 aerospace control alert sites; 
dropped 7.3 million gallons of water and fire retardant on 
fires; and provided lifesaving rescue, support, and comfort for 
the victims of Hurricanes Harvey, Irma, and Maria, to include 
2,300 sorties flown and 11,600 passenger movements and 15,000 
tons of cargo moved.
    It is my job to ensure our Guard airmen are organized and 
equipped with the right sources, tools--the right resources, 
tools, and training to do what our Nation asks. My focus is 
clear: support the National Defense Strategy through continued 
readiness recovery, improving our operational depth and 
capacity, and enhancing the lethality of our operationally 
proven Reserve force.
    To accomplish this task, we are focused on three Air 
National Guard priorities: number one, readiness for today's 
fight, to ensure we are manned, sized, and equipped to support 
a more lethal total joint force; two, 21st century Guard 
airmen, to foster a more innovative, agile, and resilient 
warrior; and three, build for tomorrow's fight, to continually 
evaluate mission areas, concepts, recapitalization and 
modernization of force structure to more efficiently accomplish 
our objectives.
    I also want to extend my deep appreciation and acknowledge 
your support of NGREA, the National Guard and Reserve Equipment 
Account. NGREA is essential to modernize our combat equipment 
to remain interoperable, reliable, relevant, safe, and 
available to respond to any crisis anywhere in the warfight or 
domestic environment in a timely and efficient and effective 
manner.
    The Air National Guard is committed to serve, excel, and 
accomplish Air Force missions with integrity, respect, pride, 
and honor. However, fiscal unpredictability creates significant 
additional stress and high operational tempo of our Reserve 
force. We need your continued support to restore readiness with 
fiscal stability and focused funding so that we can build for 
tomorrow's fight.
    Ultimately, our task is to ensure the Guard airmen are 
prepared and ready for the task we expect them to perform in 
the defense of our Nation. Thank you for inviting me here 
today, and thank you for your continued support of the Air 
National Guard support mission and its members.
    I look forward to your questions, sir.
    Mr. Wilson. Thank you very much, General Rice.
    And we now will be proceeding to General Rydholm.
    Ms. Bordallo. The speakers are working.
    General Rice. We are back on the air, so to speak. No pun 
intended.
    Mr. Wilson. Thank you, General Rice.
    I now proceed to General Rydholm.

 STATEMENT OF MAJ GEN DEREK P. RYDHOLM, USAF, DEPUTY CHIEF OF 
         AIR FORCE RESERVE, HEADQUARTERS U.S. AIR FORCE

    General Rydholm. Yes, sir.
    Chairman Wilson, Ranking Member Bordallo, and distinguished 
members of the subcommittee, thank you for the opportunity to 
appear before you today. I am extremely honored to represent 
America's Reserve citizen airmen on behalf of Lieutenant 
General Maryanne Miller, Chief of Air Force Reserve and 
Commander, Air Force Reserve Command, who is unable to be here 
today due to obligations at Arlington National Cemetery.
    Mr. Chairman, your Air Force Reserve is lethal, resilient, 
and always ready to answer our Nation's call. Each day, we have 
over 6,000 Reserve citizen airmen serving on full-time orders 
around the world in all the core missions of the Air Force.
    As we sharpen our edge to compete, deter, and win in the 
fight tonight, there are two concerns that have my attention 
because they impact our ability to strengthen our competitive 
edge for the future. Our first concern is the impact of 
continuing resolutions on the training and retention of our 
Reserve citizen airmen. The second is the loss of our full-time 
pilots and maintainers to commercial industry.
    Continuing resolutions negatively impact our training, 
retention, and ultimately our readiness. Our Reserve citizen 
airmen rely on predictability to effectively balance their 
civilian employment with their critical contributions to our 
Nation's defense.
    Reservist's availability must be matched with a predictable 
funding stream or critical training is postponed. Delayed 
training is difficult to reschedule and places an increased 
burden on the one resource we can't buy back, that being time.
    Our second concern as we continue to strengthen our 
competitive edge is the loss of our technician force of pilots 
and aircraft maintainers to the contract and commercial 
industry. Retention of our technician force is essential to 
maintaining our lethality and combat effectiveness. We have 
taken steps over the past year to increase the retention of our 
technician force, but work still remains.
    One area this committee can be of great assistance is to 
support legislation to authorize dual-status Air Reserve 
technicians medical coverage under TRICARE Reserve Select. Your 
support is vital to enhance continuity of care for our Air 
Reserve technicians and their families while they perform our 
Nation's call.
    Supporting this initiative would do more for the retention 
of our critical technician force than any action over the past 
few years, and the time is now. TRICARE Reserve Select for Air 
Reserve technicians bolsters the Nation's defense by retaining 
seasoned airmen through a continuum of care measure with 
enduring impact.
    On behalf of Lieutenant General Miller, I thank you for the 
opportunity to appear before you today, and for your unwavering 
support of our incredible Air Force, our Reserve citizen 
airmen, and their families. I look forward to answering your 
questions.
    Mr. Wilson. Thank you, General Rydholm.
    We appreciate your first appearance before this 
subcommittee, and best wishes for your continued success. And 
thank you, you returned the sound.
    Each member of the subcommittee will have 5 minutes of 
questions to our panel. It will be strictly maintained by Ms. 
Margaret Dean, and beginning with me, strictly maintained.
    General Nowland, the Air Force is approximately 2,000 
pilots short of their requirement. This pilot shortfall 
continues to worsen, and essential training aircraft, like the 
T-6 and T-38, have been plagued by increasing maintenance 
challenges.
    And most recently, the entire T-6 fleet was grounded due to 
the onboard oxygen-generating system failing to provide 
adequate oxygen to these trainee pilots. I have serious 
concerns about training these pilots of the aircraft with an 
average age of 55 years old and over 16,000 flight hours. 
Congress supports a new trainer aircraft, the TX; yet the 
contract award has been delayed.
    How is it possible for the Air Force to adequately address 
the pilot shortfall without an on-time delivery of the TX 
training aircraft?
    General Nowland. Congressman Wilson, thank you for that 
question. It is a fabulous question and one that I am deeply 
concerned about also.
    Our T-6 fleet, as I said, is critical towards our ability. 
It is our basic trainer. We are looking holistically to solve 
that from a material solution, from an education solution, from 
a training solution to get that fleet back up--that aircraft 
back up on its feet as soon as possible and back up into the 
air.
    The TX, the good news for the TX is the decision was 
delayed a little bit because of our acquisition professionals 
want to make sure we got it correct, but we have money in this 
budget to move forward on the TX. And I am with you: we need to 
have that airplane delivered on time.
    We, the Air Force, believe, because of the nature of the 
aircraft, we are hopeful that there will be little to no delays 
as we move through that. And part of the delay is to--the 
decision, I understand, was to make sure that we have the best 
choice, so if a protest came, we could move it forward as 
quickly as possible.
    And as far as our numbers, sir, and retention, you are 
exactly right. We know that retention is critical. But guess 
what? Production is critical. The way we really get out of this 
situation is we have to--and our Secretary said it yesterday--
increase our production to 1,400 undergraduate pilot training 
graduates per year and grow out of this problem.
    Retention numbers are difficult to chase. Industry is 
always there. We have over 60 initiatives, one of which is a 
monetary bonus, and we are using the authority that you have 
given us to try to adjust that bonus to maximize the potential.
    But in the end, we believe growing pilots for America and 
for the United States Air Force is in our best interest, and 
that is what we intend to do.
    Mr. Wilson. Appreciate your commitment on that. And as we 
talk about the TX contract, what would be the timeframe which 
you anticipate that a decision will be made?
    General Nowland. Mr. Chairman, I am not in the acquisition. 
What I have seen is just what you have seen. I believe it is in 
the spring or summertime is when the selection will be made, 
and then hopefully we will move in a rapid acquisition. And as 
you see in the money--in our budget, we have a large section of 
money as we move into the future to start purchasing that 
airplane.
    Mr. Wilson. Well, that is very encouraging. And, again, we 
appreciate your efforts to expedite.
    And then, for each of you, the latest projections for 
rebuilding the readiness are based on setting conditions for 
readiness recovery. What percentage of readiness will the Air 
Force reasonably attain and by what timeframe?
    Are there particular core functions that are more at risk 
than others in terms of the readiness recovery efforts? How 
does the fiscal year 2019 Department of Air Force budget 
request impact the recovery plan for the operational readiness? 
And, actually, I will begin with General Rice.
    General Rice. Thanks for that question, Chairman.
    In light of things the Guard is specifically doing to 
increase readiness, first, we are hand in hand with the Air 
Force in growing our end strength and filling in those gaps and 
seams.
    The second thing was, not only did General Nowland talk 
about production of brand-new pilots, but the other two pieces 
that we have a big part in is the training of advanced pilots 
in our formal training units, as well as the next step, which 
is absorption of those pilots into our force.
    To increase our ability to observe across the Total Force--
Guard, Reserve, and Active Duty--we have increased things like 
second-shift maintenance to get after some of these. So we put 
resources of people and part supplies and flying hours into 
that to increase our readiness.
    Mr. Wilson. Thank you very much.
    And my time is up. But, General Rydholm, thank you again 
for being here. And I was particularly happy to see you are a 
graduate of the Naval Academy. As a Naval Academy grad dad, I 
am very appreciative, so best wishes.
    And we now proceed to Guam with Congresswoman Bordallo.
    Ms. Bordallo. All the way to Guam? You said proceed to 
Guam.
    Mr. Wilson. It is so close.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And before I begin, I have two questions for General 
Nowland. But I just want to say, General Rice, thank you for 
paying such great attention to the Guard units on Guam, 
particularly Air Guard.
    General Nowland, as I mentioned in my opening statement, I 
am concerned about what I see in the fiscal year 2019 budget 
request for operations and maintenance funding and specifically 
in key readiness-enabling accounts, such as those that support 
weapon system sustainment, and note that, in the sum, the 
fiscal year 2019 request appears to be roughly the same amount 
as fiscal year 2018 levels.
    However, approximately $5 billion has been shifted from the 
base request to OCO [overseas contingency operations]. Now, can 
you explain to us the reason for this shift and also quantify 
the level of risk the Air Force is taking in weapon system 
sustainment compared to the full requirement?
    General Nowland. Madame Bordallo, that is a great question, 
ma'am.
    So the exact answer of the shifting of the money I will 
take for record and will answer, because we moved some money 
around as the budget was moved around. But in end, we are 
upping our weapon system sustainment by $400 million this year. 
We are also upping our flying hour money that we are paying 
for.
    So the answer is, as we are moving forward, 3 years ago, we 
started to build maintainers. We anticipate, next year, we will 
grow those three levels, which are apprentice into craftsmen, 
into five levels.
    So we have put money into weapon system sustainment so that 
we can hopefully increase our aircraft utilization rate by up 
one per sortie per month across the fleet, which will help us 
get an additional training.
    In addition, we have put money into our adversary air 
program at Nellis. So, when pilots go to Nellis, every sortie 
they fly will be a blue air sortie is the goal so that they are 
not taking their precious training time to act as an adversary 
but act as a primary.
    We think those two actions will help us increase our 
readiness level as we move forward, ma'am.
    Ms. Bordallo. Thank you. Thank you very much.
    The second question also is for you, General. The quarterly 
readiness report to Congress identified three lines of effort 
to return Air Force pilot manning to required readiness levels. 
Now, one of those efforts included a significantly increased 
take rate for the pilot bonus, almost double that of last year.
    Now, I understand that the Air Force is pursuing a holistic 
approach to the retention problem and that the service has not 
found financial compensation to be a root cause of the pilot 
shortage. However, neither the quarterly report nor any 
Department leadership has identified what changes will be made 
between last year and this year to achieve increased take-rate 
percentage goals.
    So, if pilot bonus take rate is one of the service's three 
main lines of efforts, how exactly do you expect to meet your 
fiscal year 2018 goal?
    General Nowland. That is a fantastic question. Thank you.
    The numbers that you--may have appeared, I think, were 
mistaken. There was a number of 65 percent in there, which is 
what we used to measure what we thought we had to retain. Our 
actual retention, as you identified, is 43 percent last year, 
and it went down a little bit. But it only went down 1 percent, 
so that was--we thought that was a win.
    So how we are going to do, given the authorities you have 
given us, we are going to try to realign our bonus rate to try 
to keep our most important people, which are our instructors 
and our evaluators, across our weapon system to incentivize it 
as we look at the business case analysis. That's the first 
thing we are going to do.
    The second thing we are going to do is we are going to 
focus on that production because we cannot ultimately control 
what the airlines are going to do and how much money they are 
going to, but we are going to work on that production to try to 
increase the maximum production we can get to while 
simultaneously improving the quality of life with those 60 
initiatives that we have to improve the quality of life so that 
their quality of service is what they want to accomplish.
    Ms. Bordallo. Thank you, General.
    And I do have just a few seconds, but I am going to yield 
back in the interest of time.
    Mr. Wilson. Thank you very much for your thoughtfulness, 
Congresswoman Bordallo.
    And we now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service. I am disappointed in 
the recommendation--some of the recommendations from the Air 
Force. I would just ask you, on one of our other weapons 
systems, the Air Force proposed several years ago and 
unfortunately Congress allowed the canceling of the F-22 
contract based on the promise that another plane was going to 
be available.
    Do you think it was a good decision to cancel the F-22 
contract?
    General Nowland. Congressman Scott, I assume that's for me, 
right?
    Mr. Scott. Yes, sir.
    General Nowland. The F-22 is--I am an air superiority 
pilot. The F-22 has proved to be one of our greatest air 
superiority assets.
    Mr. Scott. So would you agree that it was a mistake to 
cancel the contract?
    General Nowland. I was not in the Secretary's decision 
space at that time. I know there were a lot of different 
factors that worked into that at that time.
    Mr. Scott. Let me rephrase it. Do you wish that we had 
maintained the contract? Do you wish that we had more F-22s? 
Would we be a stronger Air Force today if we had more F-22s?
    General Nowland. The F-22 is an absolutely incredible air 
superiority as we look to the future and great power 
competition. Additional F-22s, I would estimate all combatant 
commanders would like to have more.
    Mr. Scott. One of the other things that our combatant 
commanders would like to have is more ISR [intelligence, 
surveillance, and reconnaissance] platforms. So, every year, 
the Armed Services Committee, we have heard from the combatant 
commanders that they don't have the necessary ISR assets to 
support the geographic commands. The JSTARS [Joint Surveillance 
Target Attack Radar System] continues to be a highly requested 
asset inside the Department of Defense.
    General Nowland and Rice, what is the rationale behind the 
Air Force's decision to impose risk on combatant commanders 
with the divestment of three E-8C JSTARS aircraft in the fiscal 
year 2019 proposed budget?
    General Nowland. Congressman Scott, the long-term--the goal 
is to increase lethality and effectiveness for the combatant 
commanders by trying to disaggregate the moving target 
indicator capacity across the force.
    So we are going to maintain the JSTARS through the mid-
twenties, with--that is a while away, as we look at this idea 
of disaggregation to see if we can create an advanced battle 
management system that gives combatant commanders greater 
capacity and dismounted moving target indicator by modifying 
the MQ-9.
    Mr. Scott. Thank you for that answer, General. But if I 
may, the Air Force's decision, they have told us repeatedly, is 
based on the fact that they don't believe that it is survivable 
in a contested airspace. So the--we have been told that the 
primary reason is that it is not survivable in a contested 
airspace.
    General Nowland. There are increased threats from our great 
power nations that do make it in a higher threat environment.
    Mr. Scott. Well, General, if I may, just continuing along 
that, would you agree that those nations like Russia and China, 
that space is a contested environment and they are working on 
advanced technologies that would make--may make our ability to 
communicate from space impossible?
    General Nowland. There is no doubt that space is becoming 
contested environment, and our Air Force space is looking at 
how we get in warfighting constructs. And to say impossible 
communications, sir, it is beyond the level of my knowledge, 
but certainly I think there will be challenges in space.
    Mr. Scott. But you would agree that they will have the 
ability to break our lines of communications?
    General Nowland. I am not----
    Mr. Scott. There is a risk that they will be able to break 
our lines----
    General Nowland. There is a risk towards our 
communications, of course. We know that they will always try to 
go after our communications capability.
    Mr. Scott. All right. I know I am getting a little short on 
time.
    And, General Rice, I apologize that I cut you out of that.
    But I do need to go again, General Nowland, to the weapon 
system sustainment accounts. What steps are you taking to 
expedite the hiring in the depot workforce, the direct hiring 
as well as the retention at our depots?
    General Nowland. Our Air Force Materiel Command General 
Pawlikowski, in working with our A-1, is attempting to 
streamline that and reduce that timeline. Our goal, as you 
know, is to reduce that and get the skilled workers that we 
need to get out on the flight line as much as we can.
    So the efforts and the authorities that you have given us, 
the Air Force is acting on those and trying to implement those 
procedures.
    Mr. Scott. Gentlemen, thank you.
    And I would point out to the committee that it was a 
mistake to cancel the F-22 contract. It would have been a 
mistake to allow the Air Force to get rid of the A-10 as they 
had proposed to. And it will be a mistake to allow the Air 
Force to stop the recapitalization of the JSTARS program.
    And, with that, I yield the 6 seconds that I don't have.
    Mr. Wilson. Thank you, Congressman Scott.
    And we now proceed to Congressman Salud Carbajal of 
California.
    Mr. Carbajal. Thank you, Mr. Chair.
    Thank you to all the witnesses for being here today.
    My question is regarding the sustainment of the F-35s. I 
don't understand how we can plan to sustain over 250 F-35 
aircraft while we try to triple the size of the fleet by 2021 
when there continues to be serious ongoing challenges to the 
program.
    Currently, F-35 repairs at the depots are 6 years behind 
schedule. There is a part shortage leaving the aircraft unable 
to fly about 22 percent of the time in 2017, and the Autonomic 
Logistics Information System, ALIS, is facing development 
delays. We are essentially building new aircraft to be quickly 
deemed not mission capable.
    This is a readiness challenge as we will not have full-
functioning F-35s for our pilots to train or operate on. It is 
my understanding that ALIS has yet to be rolled out because of 
key remaining deficiencies.
    What is the status of ALIS? How is all of this impacting 
our readiness and the ability of our pilots to train and deploy 
with these aircrafts?
    General Nowland. Congressman Carbajal, thank you for that 
question.
    We have deployed a squadron, the 34th Fighter Squadron, on 
a theater security package into the Pacific AOR [area of 
responsibility]. So the problems that you highlight talk about 
the system in general, and as we look at the system in general, 
they are absolute challenges in sustainment and cost.
    And our Secretary of the Air Force is actively working with 
the Deputy Secretary of Defense to try to drive cost down and 
performance measures on the ALIS, Autonomic Logistics 
Information System.
    However, what we have seen from our deployed forces is that 
those F-15s that are forward, the Air Force, as well as the 
Marine F-15--I mean F-35s, are performing well downrange, and 
they are actually making fourth generation better.
    So it is a challenge as we grow the system with the parts 
because we are still building airplanes, and it is an 
international program. They are trying to work through it. Our 
logisticians are working with the joint program office to 
streamline that as best they can.
    Mr. Carbajal. I appreciate your answer, but I will tell you 
that it would be great if we could somehow get some kind of 
action plan that identifies all these deficiencies and some 
timelines by which we hope to be able to overcome these 
challenges.
    Because if not, your statement, as great as it sounds, it 
is pretty hollow. So it would be great for us to know, what is 
the Air Force action plan to address these issues and the 
timeframe by which to do it?
    General Nowland. We will take that and give you a written 
answer on that so that way we can provide that to you.
    [The information referred to was not available at the time 
of printing.]
    Mr. Carbajal. Thank you very much.
    Mr. Chair, I yield back my time.
    Mr. Wilson. Thank you, Congressman Carbajal.
    We now proceed to Congressman Dr. Scott DesJarlais of 
Tennessee.
    Dr. DesJarlais. I thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    General Rice, good to see you again. As you know, Tennessee 
has a strong Guard presence all across the State. It is 
something we are very proud of. And our Air Guard in particular 
carried out an exceptional set of important missions that 
contribute to our national security on a daily basis.
    General James Hecker of the U.S. Central Command recently 
stated that we have 50 percent more MQ-9 drones providing ISR 
capabilities in Afghanistan than we had a year ago. For obvious 
reasons, RPAs [remotely piloted aircraft] have become very 
popular with our combatant commands, and the Air Force budget 
reflects that demand with its request to procure 8 peacetime 
and 21 OCO Reaper drones.
    My question is, what does the combat line growth and 
procurement increase mean for National Guard RPA missions?
    General Rice. Thanks for that question, sir. And bottom 
line, thanks for your support too of our Guard. We can't do it 
alone. We need your help as we work hand in hand on how we 
present forces across the Total Force, Guard, Active, and 
Reserve.
    As far as RPA specific, it is a building-block approach. So 
not only is it just the platforms to put up, but it is also the 
ground control stations, and it is the processing, 
exploitation, and dissemination of the data. And so parts and 
pieces of that are growing in Tennessee, and we are putting in 
platforms, newer platforms of MQ-9s into Tennessee as we field 
those over in the next few years. That is our part. That is our 
role right now: to expand that capability within the National 
Guard across all of our units that we have fielded, which 
includes Tennessee.
    Dr. DesJarlais. Okay. And followup to that, in regards to 
RPA launch and recovery elements [LREs], during the recent 
California wildfires, we saw firsthand the critical role RPAs 
can have in assisting first responders. How many domestic LREs 
do we currently have, and are there plans to prop up more LRE 
missions?
    General Rice. Our goal is to have 5 units with LREs. We 
have two at each one of our training units in New York in 
March, and then we have three other units that are receiving 
the launch and recovery elements too.
    Once we get to that level, I think we will be able to 
maintain the weapons system for a while and a good balance 
between home-station training and response in the homeland as 
well as be able to deploy one of the five at any time to meet 
Air Combat Command missions.
    Dr. DesJarlais. We would be happy to host one of those at 
Nashville, by the way.
    General Rice. Noted, sir. Duly noted.
    Dr. DesJarlais. And also because we are on that subject, we 
would love to have you back down to Tennessee soon. And I want 
to reiterate how perfectly situated the 164th is to host an 
AEROMED [aeromedical] squadron should there be mission growth 
in that area.
    General Nowland, yesterday, this group was at an Armed 
Services retreat, and the Deputy Secretary of Defense Patrick 
Shanahan used an anecdote talking about the repair times for 
aircraft. And he gave an example of a Southwest airliner, 737, 
if it had a part problem, I think he used a flap as an example, 
that that could be procured, replaced, and the plane could be 
flying within 24 hours. But put that same 737 in a military 
skin, it might take 6 months just to get the part and 3 months 
to repair it.
    First of all, is that an accurate description? And if so, 
considering that 50 percent of our airplanes are in poor repair 
and not ready to fly, how do we solve that problem?
    General Nowland. Thank you very much. It is an interesting 
question for me. I am not positive, given the facts, that I can 
say if it is true or not true. Certainly, we have unique part 
sets where our logistics system doesn't where we sit. And we 
measure that, and remember, we call it S time and then B time, 
which is technical term for how much we are sitting.
    Our older airplanes absolutely have part problems. Our WC-
135s, our older boutique airplanes have logistics challenges. 
Some of our newer airplanes, as was pointed out, F-35. But for 
the most part, we have invested in weapon system sustainment. 
So our parts supply and our Defense Logistics Agency and our A-
4 is managing it, I would say, fairly well if you look at our 
metrics across.
    The other thing that we do in our small airplanes is we 
have what is called a CANN [cannibalization] rate, which is 
where we take a part out and we take it and we move it. And, 
right now, our cannibalization rate is very good. We are not 
doing that. So all indicators are, across the majority of the 
fleet, we are looking pretty well. Our older airplanes, though, 
challenges.
    Dr. DesJarlais. Thank you. I yield back.
    Mr. Wilson. Thank you very much, Doctor.
    We now proceed to Congressman Don McEachin of Virginia.
    Mr. McEachin. Thank you, Mr. Chairman.
    And, Generals and Major General, thank you all for being 
here.
    And if you have already covered this, I apologize for my 
tardiness, but as we think about readiness and as we think 
about readiness particularly where the Air Force is concerned, 
can you speak to me about pilots? And do you have enough 
pilots? Is there a pilot shortage? And how can we help you 
address that shortage if it exists?
    General Nowland. That is one of my favorite questions, so 
thank you very much for asking it.
    Where we can help, yes, we do have a pilot shortage. As you 
know, the numbers were about 2,000 pilots short, about 1,300 
fighter pilots short. Where it really manifests itself mostly 
right now is in our staffs, which are our organizations which 
oversee, because we are continuing to reduce our staffs to keep 
our cockpits manned, which has a second-order effect.
    Where we need help and I think that we are going to come to 
ask Congress for some help, is to increase our capacity. As we 
said, our Secretary said, our capacity needs to be at 1,400 per 
year, and we need to hold that steady.
    The question is: As was noted with the T-6, we are 
challenged right now because that fleet is grounded; the TX is 
coming onboard. So we have a group of ideas on how we could 
increase our production, and we are working through those 
ideas. And we would love to come into the future, once we get 
them mature, to share those with the committee on how we think 
we might need some help to continue to get after it.
    The other thing we are doing is we are experimenting. Our 
Air Education and Training Command, General Kwast, is running 
an experiment on how do you increase, reduce the amount of time 
that it takes to train a pilot, which therefore would increase 
your throughput. So we are looking at all avenues as we move 
forward.
    Mr. McEachin. Okay. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wilson. Thank you, Congressman McEachin.
    We now proceed to Congressman General Trent Kelly of 
Mississippi.
    Mr. Kelly. Thank you, Chairman. And thank you, all, for 
being here.
    General Nowland, just real quickly, you talked about the 
number of pilots, increasing the throughput and the training of 
pilots on the entry level. Is that including the number 
included for the National Guard and Reserve to make sure that 
we have training seats?
    Because it doesn't matter. We have got to have the capacity 
to train, but it can't just be the Active Component. It has got 
to be also--that capacity has to include those same pilots to 
go into the Guard and Reserve. Does your number you gave me 
include that--earlier, the number you gave earlier?
    General Nowland. Congressman Kelly, thank you. Great 
question.
    Absolutely includes our Total Force--Reserve, Guard, Active 
Duty--and it also includes a small sliver because our strategy 
says ``in, with, and through international partners.'' So there 
is some international development--I mean production in there 
also.
    General Rydholm. Congressman, could I pick up a piece of 
that too, if I could, sir?
    Mr. Kelly. Yes.
    General Rydholm. To General Nowland's point, one of the 
things that we see across the Air Force Reserve is that we lose 
roughly--we have 3,500 pilots, and we lose roughly 10 percent 
per year. We get 100 training slots, so we need to be able to 
affiliate 250 Active Component airmen as they come off the 
Active Duty and come to us.
    One of the ways that we are looking at doing that is 
through a number of initiatives, one of them being special 
salary rates for our Air Reserve technicians, another being 
some other incentive bonuses and things.
    And then, in addition to that, with the pure production 
piece that was just stated, we have contributed a number of 
airmen to the enterprise, maintenance airmen in particular, 
seasoned airmen in the Air Force Reserve that are helping some 
of our large production formal training unit locations, such as 
Luke Air Force Base and the F-16.
    Mr. Kelly. Thank you.
    And, General Rice, you talked about the TRICARE Reserve 
Select and our Federal technicians. I understand that. I am 
actually looking at that, and that is something that is very 
important.
    It is important to me that when we have soldiers, sailors, 
airmen, and Marines, whatever, Reserve or National Guard or 
Active Component, if we are doing the same job on a daily 
basis, we shouldn't have different benefits. They should be 
exactly the same.
    And we shouldn't tell people, ``Because you are a Fed tech, 
you can't get this TRICARE, you have got to pay more and have 
less benefits than someone else,'' when their part-time--their 
full-time job supports the part-time job, and it is the same. 
And so I am supportive of that.
    And, General Rice, I just want to ask you: Do you feel like 
you have the adequate number of training slots to make sure 
that we have the right number of Air Guard pilots trained and 
ready to go on a moment's notice?
    General Rice. Absolutely, sir. We definitely have the right 
number of training slots. As General Nowland referenced, this 
is a Total Force effort on getting ahead on producing pilots, 
and we are right there hand in hand with them.
    Mr. Kelly. And, General Rice, I guess, this is for all of 
you all, but I will start with you. We shouldn't have the part 
problems that we have in getting parts there on time. And I 
understand PLL [production load list] from an Army issue, and I 
don't know what you guys call it, but we call it PLL, and that 
is our basic load of parts that we know are going to break. And 
that is delegated way too far down to the level on some of 
those things.
    We should know what is breaking on F-35s. We should know 
what is breaking on A-10s and F-22s. And that has got to be 
readjusted every year at the highest level, but we should never 
be caught by surprise and have to wait 6 or 8 months for the 
same part 100 times in a year.
    That is poor management at some level. And so we really got 
to get better. With all the computer systems, we know across 
the world what the break rate on A-10s are or on F-35s or C-
17s, and so I just want to make sure.
    And the final thing is, General Rice, allocating new 
planes, are we getting the right mix of getting the C-17s and 
the F-35s to the Guard and the Reserve to make sure that we can 
respond in a moment's notice? Are we getting the right mix in 
the acquisition and fielding of all of our planes?
    General Rice. Mr. Kelly, we have five capstone principles 
that define what the Air National Guard brings to the table, 
things like we are experience based; we are dual-role mission 
and doing domestic ops [operations] and overseas. And one of 
the things that provides us the ability to serve as an 
operational part of the force in the Reserve Component is the 
fact that we get concurrent and balanced modernization and 
recapitalization. And I am here today to tell you, yes, we are 
getting concurrent and balanced modernization and 
recapitalization from the Air Force. Great support.
    Thank you, sir.
    Mr. Kelly. And very briefly, General Nowland, make sure you 
are letting these guys know, all the guys who are leaving in 
the Active Component, I hate to lose that. They should go to 
the Reserves. There is varying levels of which people can serve 
at points in their life. I am a victim of that at some time.
    So make sure we don't lose a pilot, that we can maintain 
those years of experience that can go to the Guard and Reserve. 
And I have to yield back, but thank you, Mr. Chairman.
    General Nowland. Yes, sir.
    Mr. Wilson. And thank you, Congressman Kelly.
    We now proceed to Congresswoman Vicky Hartzler of Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    So, General Nowland, the end of the Cold War, along with 
other factors, resulted in the early termination of the B-2 
program, which is at Whiteman Air Force Base in my district. 
And, ultimately, as you know, we only have 21. Originally, we 
were supposed to have 132.
    And that, of course, has resulted in ballooning the cost of 
the--per plane when they were being built, as well as supply 
chain issues, parts sustainment that we are still dealing with 
today.
    And the B-2 bomber, that was the only aircraft in the 
bomber fleet that is able to operate in a contested air space. 
Since we only have 20 B-2s, there is really less than that when 
you see how many can be combat coded. So can you comment on the 
importance of keeping the B-21 program on time and on budget 
and at the full number requested?
    General Nowland. Congresswoman Hartzler, that is a great 
question, and it absolutely is imperative for the United States 
Air Force that we move into great power competition, that we 
fully recapitalize our strategic bomber fleet.
    The 100 B-21s that General Rand as a minimum would like to 
buy and our Chief and Secretary fully support is critical 
towards our future capacity as we think about time-distance 
problems that we have.
    As you know, the B-2 strike that we did last summer all the 
way in Libya is an example of the ability to reach out and 
touch a target anywhere in the world and accomplish America's 
objectives.
    The B-2, the B-21, and the B-52 recapitalization with long-
range munitions are critical towards our power as we move into 
great power competition, and keeping it on time is also really 
important.
    Mrs. Hartzler. So what is your perspective on when to 
retire the B-1 and the B-2 bomber? Given that the B-2 can 
penetrate anti-access air space and the B-1 cannot, doesn't it 
make sense to retire the B-2 last to ensure the maximum amount 
of stealth bombers are available to prevent any gaps in 
capacity and capability?
    General Nowland. Ma'am, I have talked to General Rand, and 
I have been in a room with the Chief and General Rand were 
talking about this, and combatant commander requirements are 
absolutely included in the planning as we move forward to make 
sure that we have no gaps in our penetrating capacity.
    The future of the Air Force is penetrating, nonpenetrating, 
manned and unmanned, but the strategic bomber capacity to 
penetrate an enemy's airspace--and we think of the enemy's 
airspace not as an Iron Dome but as Swiss cheese, so it is a 
team of team approaches to get in that Swiss cheese, open it, 
and they are committed not to retire anything and lose that 
capacity. So they are sequencing that.
    Mrs. Hartzler. Okay. And, General Rice, I am sure you are 
aware of that as well. I am so proud of the way that Whiteman 
is certainly a joint force with both the 131st Bomb Wing, the 
Guard, with Active Duty 509th, totally, totally integrated, 
work in harmony every day.
    Now, airmen leaving the Active Duty Component have an 
opportunity to continue their service in the Guard. However, if 
there is not a control grade available, those highly qualified 
and trained B-2 airmen cannot continue their service in the 
131st unit.
    So how does the current control grade cap impact the Air 
National Guard's ability to recruit and retain qualified airmen 
for full-time Guard positions?
    General Rice. That is a very relevant question, ma'am, 
because that is right in the heart of our personnel issues to 
grow readiness. We need congressional relief for control grade 
caps, no doubt.
    Mrs. Hartzler. Okay. That is good. I am glad to hear that 
clear message from you on that because I believe so as well.
    And so you would concur that there is a shortage of control 
grades, and how do you think that is impacting the Air National 
Guard?
    General Rice. I just would clarify something. I don't 
think--I don't look at it in terms of a shortage or overage. I 
look at it as a limit. So, right now, we are limited on the 
number of control grades we have. That limit is stifling our 
ability to capture--back to our capstone principles--the 
experience base that is coming off of the Active service.
    So we don't hire a lot of lieutenants and E-1s and E-2s. We 
hire a percentage, but not a lot. Most of our experience base 
is at the 10-year point, 15-year point, and more control grades 
on majors, lieutenant colonels, and colonels, and E-8s and E-9s 
is critical for us to maintain that experience base.
    Mrs. Hartzler. Okay. Very good. Thank you. Yield back.
    Mr. Wilson. Thank you, Congresswoman Hartzler.
    I am grateful that Congresswoman Madeleine Bordallo has 
another question.
    Ms. Bordallo. General Rydholm, I have a question for you. 
Thank you for taking time to meet with me on Monday, and I 
appreciate you making multiple trips to my office already this 
year to advocate for both the Air Force Reserve and the Total 
Force.
    Earlier this week, it was published that the Air Force 
plans to retire both the B-2 and the B-1 bombers as the B-21 
becomes operational. So can you please comment on any 
intentions of the Air Force Reserve Command to absorb legacy 
bomber aircraft?
    And the second question is, what are the advantages or 
disadvantages of the Guard and the Reserve Components 
maintaining a fleet that has been divested by the Active Duty 
Component?
    General Rydholm. Okay, ma'am, well, thank you for the 
question. I would like to answer it kind of in reverse order.
    I would say--and General Rice mentioned this one time 
before--we feel very strongly about the concurrent investment 
and divestment of weapons systems. So the legacy H model of C-
130 is probably a good example of that because when you compare 
that--and the Guard and Reserve had many of those airframes--
when you compare that airframe to the Active Duty J model, the 
crew complement is different, the training is different, the 
supply chain logistics are different, everything is different 
about it. So it is bad, but the Air Force as a whole is doing a 
great job when we expanded in new weapons systems of going into 
those weapons systems holistically with the Total Force.
    From our perspective in the Reserve Command, we are 
currently participating in the B-52 at Barksdale and the B-1 at 
Dyess. We anticipate, as has been stated earlier by General 
Nowland, that, based on General Rand's plan of keeping a lot of 
B-52s around for a long time, up to 100 years, for the 
lifecycle time on that airframe, that growth in that is 
actually a good thing, and we are looking at small growth in 
what we are doing at Barksdale.
    As far as the B-1 is concerned, our association there at 
Dyess is fairly small. The footprint is working well for us, 
and there is talk of expansion there. And our expectation, as 
has been the case in other weapons systems, is that if we 
retire a bomber, we will replace it with a new bomber.
    And, therefore, our expectation would be that, if we are 
currently associating in the B-1 at Dyess and the choice is 
made to divest that aircraft in order to invest in the B-21, 
that we would invest with our Active Duty partners in that same 
airframe.
    Ms. Bordallo. Thank you, General. My time is so limited 
here. As a followup, do you anticipate these changes in the 
bomber fleet that would have any impact on the continuous 
bomber presence on Guam?
    General Rydholm. Well, I am not sure that I can answer, but 
I think that one of the things that General Nowland mentioned 
was that we do not want to take down any weapons system until 
we know that we have at least a similar or a more capable 
weapon system to replace it.
    Therefore, my expectation would be with the investment that 
we are doing into some of our older bombers, like the B-52, et 
cetera, that the continuous bomber presence, which provides a 
tremendous deterrent for our Nation, will continue.
    Ms. Bordallo. All right. Thank you. You know, we really 
want to keep those bombers there because of all the unrest in 
the Pacific Asia area at this time.
    In a hearing last month with this committee, GAO 
[Government Accountability Office] identified critical F-35 
sustainment challenges, including limited repair capacity and 
spare part shortages. What steps does the Department intend to 
take to ensure that the F-35 fleet meets production timelines 
while stabilizing operation readiness requirements? Would that 
be you or----
    General Nowland. Ma'am, that would be me.
    So the joint program office, which is led by a one-star for 
the United States Air Force, is looking into this. And it 
gets--it has to do with priority. The United States Air Force 
right now has the most F-35s of anyone out there. Yet the 
supply system right now kind of distributes them across the 
force.
    So the Air Force is looking, how do we do it, the 
redistribution of the supply system, towards our priority 
missions? We have a priority mission overseas, and it 
demonstrates that, when the airplane gets the part, the 
airplane flies extremely well. So they are looking at how we 
hold sustainment costs down while at the same time providing 
the parts that we need to get.
    And I think that when we can provide a plan back, we will 
provide that to the entire committee, obviously, and hopefully 
that will help answer that question.
    Ms. Bordallo. Okay. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    And I am grateful that Congressman Austin Scott has a 
further question.
    Mr. Scott. General Rydholm, I think the statement that you 
made was: Don't take down one system until you know you have a 
replacement system that works.
    General Rydholm. Yes, sir.
    Mr. Scott. I agree with that, just for the record. The 
JSTARS works, and there is no replacement system that works. I 
would ask one followup to you.
    Would you be supportive of legislation that would ensure 
that Air Force Reserve mil techs are considered essential 
during--and hopefully we have taken government shutdowns off 
the table for the next 2 years with the bill that passed last 
week--so that they would be exempt from furloughs?
    General Rydholm. Well, I appreciate your efforts with the 
bill. And as you know, I was in your office the day before the 
government shutdown, and it was a difficult day for everyone.
    We absolutely support the exemption of mil techs. As most 
of you are aware, a number of us had--after the Friday night 
shutdown, a number of Air National Guard, Air Force Reserve 
organizations had their drill weekends, and that had an impact 
on folks.
    In a large degree, what we do on a drill weekend and the 
heart and soul of most of our organizations are mil techs. That 
30 percent at the unit level are the people that are the bread 
and butter that run the daily operations in those 
organizations, and when we have to make decisions about which 
are exempt and which aren't exempt based on either emerging 
missions or named operations, it becomes very complicated, and 
it would be much, much better from our perspective if we, once 
for all, first and foremost, we get back to a stable budget, 
and we wouldn't have to worry about it. But if we can't get to 
that, at a minimum then we would look for support to help us 
get the exemptions for our Air Reserve technicians.
    Mr. Scott. Well, I hope that we have an agreement so that 
continuing resolutions and shutdowns and potential sequester is 
over with for at least the next 2 budget years, but I do think 
that we probably should continue forward trying to find a 
resolution of that in case we end up in the unfortunate 
scenario that we have been in because of the few hard heads up 
here that would rather prove a point than make a difference.
    So I look forward to continuing to work with you and thank 
you. Thank you all for your service.
    General Rydholm. Thank you.
    General Rice. And, Congressman, I would like to add that it 
is not just an Air Force Reserve mil tech issue. It is a Guard 
and Reserve Total Force issue with dual-status guardsmen as 
well
    Mr. Scott. Yes, sir. Thank you for correcting me, General 
Rice.
    General Rice. Thank you, sir.
    Mr. Scott. I yield the remainder of my time.
    Mr. Wilson. And, Congressman Scott, thank you very much for 
bringing up that very important issue and your insight.
    Also, General Nowland, General Rice, and General Rydholm, 
thank you for your candid remarks and helping this subcommittee 
understand how the President's budget request plans to restore 
and rebuild the U.S. Air Force, which we are so proud of.
    This has been a special hearing in that with the sound 
system on and off, depending on the moment, and I want to thank 
our stenographer, Kellie Humiston, for being so understanding 
as she sat there quietly and could hear all of us and correctly 
record this hearing.
    And for this, the hearing is adjourned.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]

    
=====================================================================

                            A P P E N D I X

                           February 14, 2018
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 14, 2018

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 14, 2018

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. SCOTT

    Mr. Scott. I'm concerned to see the Air Force still imposing risk 
in the Weapons System Sustainment (WSS) account in the delivered 
budget. We need to remain focused on the depot funding to ensure 
aircraft are available on time to meet combatant commander 
requirements. One of the largest stumbling blocks is the recruitment 
and retention of qualified individuals in our depots. What steps are 
you taking to address expedite depot workforce direct hiring as well as 
retention efforts?
    General Nowland. HIRING: The Air Force is grateful for the direct 
hiring authority to expedite hiring at depots that Congress provided in 
the FY17 NDAA, an authority that has been extended through 2021. While 
Air Force utilization of the direct hiring authority was delayed in 
2017 due to the Presidential Hiring Freeze and delayed DOD 
implementation guidance, Air Force Materiel Command is now maximizing 
the use of the authority to expedite hiring in several occupations in 
its depots (e.g., aircraft maintenance, engineers, firefighters.) As of 
28 Feb 2018, 1000+ hires have been on-boarded under this expedited 
hiring authority. 1. RETENTION: Retention efforts include maximizing 
the use of recruitment and relocation incentives and student loan 
repayments to hire and retain highly qualified depot personnel. These 
efforts include using expedited advance in hire rate packages to offer 
competitive salary increases to engineers. Additional retention efforts 
include the following: a. Two key programs have yielded great benefits 
in retaining scientists and engineers. First, Section 852 Defense 
Acquisition Workforce Development Funds have been a valuable resource 
supporting our efforts to recruit, hire, retain, train, and develop our 
scientist and engineer workforce. Second, in 2016, the Air Force 
Materiel Command implemented the DOD Civilian Acquisition Workforce 
Personnel Demonstration Project (AcqDemo) for the acquisition 
workforce, including scientists and engineers. Although it is in the 
initial stages of implementation, AcqDemo provides vital hiring and 
compensation flexibilities that enable hiring managers to offer 
competitive salaries and compensate our technical workforce according 
to performance. b. Additionally, the Air Force authorizes civilian pay 
incentives to alleviate personnel recruiting and retention problems due 
to differences in Federal and non-Federal pay for comparable 
occupations. Retention incentives are paid to an employee if the agency 
determines that the unusually high or unique qualifications of the 
employee or a special need of the agency makes it essential to retain 
the employee and the employee would likely leave the Federal service 
without a retention incentive. Employees must sign a service agreement 
prior to receiving a retention incentive. These incentives are based on 
limited funding pools within the installations. Air Force Materiel 
Command currently has 35 employees assigned who received 18K in 
retention incentives.
    Mr. Scott. I continue to support the Light Attack experiment and 
look forward to the results of phase two at the end of July 2018. This 
program will not only provide a means to avoid the costly operations 
and maintenance on the 4th and 5th Generation fighter fleet but bolster 
the opportunities to partner with international countries who might not 
be able to afford a more pricey jet like the F-35 or F-15. What are the 
initial assessments on the requirements for pilots to meet the cockpit 
demand signal in the light attack while not decrementing the readiness 
levels in other platforms?
    General Nowland. The procurement of a light attack aircraft (LAA) 
will initially introduce a minimum demand increase among experienced 
fighter aircrew (50-100) over the inaugural years. This will be 
effectively managed through the deliberate and combined use of Total 
Force Airmen, transitions from other platforms, and contractor/civilian 
augmentation. Around year three, the LAA enterprise becomes self-
sustaining to meet its demands with experienced LAA aircrew and begins 
``paying bills'' for other communities (e.g., training assignments, 
deployed staffs, etc.), allowing experienced aircrew in fighters, 
mobility, special operations, and others to remain in their career 
fields.

                                  [all]
</pre></body></html>
